The Department of Justice Office of the Inspector General (OIG) today released a report
examining the Bureau of Alcohol, Tobacco, Firearms and Explosives’ (ATF) inspections of the
explosives industry. The OIG found that from fiscal year (FY) 2006 to FY 2011, ATF generally
conducted the explosives inspections mandated by the Safe Explosives Act of 2002 (SEA) and
had procedures in place to ensure it did so consistently.

However, the OIG report also found that ATF needs to improve its performance in several
areas:

Our review found that ATF does not consistently document whether its inspections of explosives
manufacturers, importers, dealers, and users meet the requirements of the SEA. As a result,
ATF cannot precisely determine, and could potentially overstate, its progress towards meeting
the SEA’s requirement that explosives storage facilities receive a qualifying inspection at least
once every 3 years. During our review, we were able to determine that ATF conducted at least
94 percent of its required compliance inspections, but we could not determine whether ATF
conducted the remaining 6 percent of inspections.

We also found that ATF does not comprehensively analyze the detailed information it collects
during its inspections to identify trends in the explosives industry and then target resources to
address those trends. Today’s report identifies ways in which such analysis of inspection results
could enhance ATF’s ongoing work as the industry’s regulator, such as by ensuring that ATF can
identify trends affecting the entire industry or relevant subsets of the industry, and by providing
it with such basic industry information as the exact number of commercial explosives magazines
in the United States or in a region. This could assist ATF in conducting inspections more
effectively, monitoring progress in completing inspections, and allocating resources efficiently.

In addition, we found that ATF does not have an effective way to enforce its requirement that
licensees that go out of business transfer their explosives records to either ATF or a successor
licensee. We found that fewer than half of the licensees that went out of business between FY
2006 and FY 2011 complied with this requirement, and that ATF has no efficient way to
determine which out-of-business licensees have records that need to be submitted.

Two findings in our report relate to areas in which ATF has limited knowledge about whether
licensees obtain explosives in the manner that ATF expects:

    First, ATF regulations authorize explosives purchasers who are in the process of
     renewing their licenses to continue buying explosives for 45 days after the expiration of
     their license. Yet we found that ATF has not provided explosives sellers with an
     adequate mechanism for differentiating between buyers that are and those that are not
     authorized to make purchases during this grace period. This creates a risk that sellers
     may sell explosives to buyers with expired licenses that they do not know are
     unauthorized to make such purchases.

    Second, for explosives users who state that they only purchase explosive pest control
     devices, ATF forgoes its standard in-person inspections in favor of telephone
     inspections. In so doing, ATF typically relies on the users’ statements about the types of
     explosives they purchase, and about whether they are following storage regulations,
     without independently verifying those statements. Yet the licenses issued to these users
       do not limit their purchases to just pest control devices, creating a risk that some of
       these users might tell ATF they are only purchasing explosive pest control devices and,
       instead, purchase and store more powerful explosives without being subject to in-person
       inspections of their facilities.

The OIG made seven recommendations to help ATF improve its explosives inspection
program. While ATF concurred in whole or in part with five of the recommendations and has
begun taking steps to implement them, it disagreed with two recommendations addressing the
analysis of inspection data and its use of telephone inspections for explosive pest control device
users.

The report can be found at the following
link: http://www.justice.gov/oig/reports/2013/e1304.pdf.
